NO.
IN THE
SUPREME COURT OF THE UNITED STATES
_______________________
COURT OF APPEALS CASE NO. 19-30356
_________________________
UNITED STATES OF AMERICA
Plaintiff-Appellee-Respondent
v.
DWAYNE WINANS, JR., ALSO KNOWN AS BUTTER WINANS; BRYSON TUESNO
Defendants-Appellants-Applicant
_________________________

On Application to Stay the Mandate of the United States Court of Appeals
for the Fifth Circuit
_________________________
Emergency Application for Stay Pending the Filing and Disposition of a Petition for a
Writ of Certiorari – Filed July 2, 2021.
RESPECTFULLY SUBMITTED:
MATTHEWS LAW OFFICE, LLC
JEROME W. MATTHEWS, JR
LA. BAR ROLL NO. 33964
ATTORNEY FOR APPELLANT
310 HUEY P LONG AEV., STE 104
GRETNA, LOUISIANA 70053
(504) 247-6411

MOTION FOR STAY OF MANDATE CURRENTLY SCHWEDULE TO
ISSUE BY THR 5TH CIRCUIT COURT OF APPEALS ON JULY 8, 2021.

To the HONORABLE SAMUEL A. ALITO, JR., Associate Justice of the Supreme Court
of the United States and Circuit Justice for the Fifth Circuit:
Earlier this week a single Judge of the Fifth Circuit summarily denied a motion by
Dwayne Winans to stay the mandate pending a petition for certiorari. Absent emergency relief
from this Court, the mandate will issue on July 8th, 2021, and Dwayne Winans will have his
rights violated and no further recourse. Dwayne Winans respectfully moves this Court to stay the
issuance of the mandate in this matter. Appellant seeks a stay of 90 days pending filing of a
petition for writ of certiorari with the Supreme Court. The government has been informed of this
motion, and they oppose the relief sought.
Winans’ original brief for this appeal presented one issue, whether there was violation of
the speedy trial act 18 U.S.C. § 3161 (b) due to the District Judge incorrectly interpreting 18
U.S.C. § 3161(h)(1)(D). Mr. Winans was indicted 44 days after the date of arrest, which is 14
days beyond the time allowed by the law, and 31 nonexcludable days elapsed between the arrest
and the indictment, due to Saturday August 27th, 2016 and Sunday August 28th 2016 being non
excludable days under 18 U.S.C. § 3161(h)(1)(D), prompt disposition of such motion, United
States of America v. Jason Tinklenberg 563 U.S. 647 (2011) at 131 S. Ct. 2017, under Federal
Rule of Criminal Procedure Rule 50 dealing with prompt disposition of such motions, and under
18 U.S.C. § 3142(f)(2) under the Bail Reform Act, and under Federal Rule of Criminal
Procedure Rule 45 the computation of time.

A panel of 5th Circuit Judges held that under the Bail Reform Act August 27th, 2016 and
August 28th 2016 were excludable days. On June 21, 2021 the 5th Circuit denied a petition for
rehearing which was timely filed.
Mr. Winans is entitled to a stay of the mandate to pending disposition of a petition for
writ of certiorari to answer the question of did the panel err in excluding Saturday August 27th,
2016 and Sunday August 28th 2016 out of the 30-day window in indicting Mr. Winans due to the
clock stopping and resuming under the speedy trial act 18 U.S.C. § 3161 (b).
There is a reasonable probability that the United States Supreme Court will grant a
petition for writ of certiorari in this case, and if it does, there is a significant possibility of
reversal. Failure to grant this motion will cause irreparable harm to Mr. Winans.

BREIF FACTUAL SUMMARY
The government argues that 5 days are excluded from the computation under the Speedy
Trial Act due to the government’s filing a motion for continuance of the detention hearing on
Wednesday August 24, 2016 through the conclusion of the hearing on Monday August 29, 2016
causing the indictment to return under 29 “countable” days under the Speedy Trial Act. But the
key part of 18 U.S.C. 3161 (h)(1)(d) dealing with prompt disposition of cases in which there is a
reason to believe the pretrial liberty of a defendant poses danger to himself, to any other person
or to the community. Rule 50 may provide an alternative to the pretrial detention. Rule 50,
Prompt Disposition, state that scheduling preference must be given to criminal proceedings as far
as practical. The notes under rule 50 continue maintaining that preventing undue delay in the
administration of criminal justice has become an object of increasing interest and concern. This
is reflected in Congress see, e.g. 116 cong. Rec 57291-96 (daily ed. May 18 1970). Bills have
3

been introduced fixing specific time limits. The note continues stating that proposals for dealing
with the problem of delay have also been made by the president’s commission on law
enforcement and administration of justice . . .Historically, the right to a speedy trial has been
thought of as a protection for the defendant. Delay can cause hardship to a defendant . . . The
district court plans must contain special provisions for prompt disposition of cases in which there
is a reason to believe that the pretrial liberty of a defendant poses danger to himself, to any other
person, or to the community.
The government sought a continuance on the motion under 18 U.S.C. 3142 (f)(2) to the
detention hearing in a case that involved (A) a serious risk that such person will flee; or (B) a
serious risk that the person will obstruct or attempt to obstruct justice, or threaten, injure, or
intimidate or attempt to threaten, injure, or intimidate a prospective witness or juror. When the
government seeks a continuance that continuance may not exceed three days (not including any
intermediate Saturday, Sunday, or legal holiday.) However, under the Speedy Trial Act and
under United States of America v. Jason Tinklenberg 563 U.S. 647 (2011), the government had
no right under the constitution of the law of the United States of America to exclude the
intermediate Saturday and Sunday on August 27, and August 28 2016. The government is now
allowed to gain a tactical advantage against the defendant by requesting continuances and
obtaining additional time under the Speedy Trial Act. When a court determines that a speedy trial
violation occurred, it must address whether the dismissal will be with or without prejudice. In
determining whether to dismiss the case with or without prejudice, the court shall consider the
seriousness of the offense, the facts and circumstances of the case, and the impact of
reprosecution. In this case, Mr Winans has been charged with very serious offenses, and the
4

government has used a tactical advantage of requesting a continuance to gain additional time
under the Speedy Trial Act.

SUMMARY OF THE ARGUMENT
The issue in this appeal is whether the trial judge erred in using an incorrect interpretation
of 18 U.S.C. § 3161(h)(1)(D) in ruling that only 29 countable days occurred between Mr.
Winans’ arrest and his indictment. Although the panel relied on 18 U.S.C. § 3142(f)(2), Mr.
Winans’ appeal is based on 18 U.S.C. § 3161(h). The panel did not address that under the Speedy
Trial Act, Saturdays and Sundays are countable days, and in the present case, the government
was only allowed the three business days to be excluded from the computation under the Speedy
Trial Act.
On August 23, 2016 Winans was arrested. The 30-day period to indict Mr. Winans under
the Speedy Trial Act 18 U.S.C. § 3161 started on August 24th, 2016. See FRCP rule 45 stating
that in calculating time “exclude the day of the event that triggers the period.” The government
moved to continue the detention hearing which was granted. Under 18 U.S.C. § 3142 (f)(2) the
government is entitled to a three-day delay; therefore, it stopped the 30-day Speedy Trial Act
Clock on August 25, 2016. The clock started again on August 27th, 2016, then stopped again on
August 29th, 2016. After the detention hearing was heard, the clock resumed again on August
30th, 2016. Winans does not argue that 18 U.S.C. § 3142 (f)(2) The Bail Reform Act was
violated. The Bail Reform Act expressly states that the “continuance may not exceed three days
(not including any intermediate Saturday, Sunday, or legal holiday.)” However, under the Speedy
Trial Act 18 U.S.C. § 3161, Federal Rule of Criminal Procedure 45(a)(1)(B) Computing and
Extending Time, and Federal Rule of Criminal Procedure 50 Prompt Disposition, and under
5

United States of America v. Jason Tinklenberg 563 U.S. 647 (2011), the government had no right
under laws of the United States of America to exclude the intermediate Saturday and Sunday on
August 27, and August 28 2016. This is a substantial question of law which the Supreme Court is
likely to hear.

ARGUMENT
This 5th Circuit did err in holding that Saturday August 27th, 2016 and Sunday
August 28th 2016 were excludable days solely under the Bail Reform Act and not
considering if they were non excludable days in indicting Mr. Winans under the 30-day
window in 18 U.S.C. § 3161(h)(1)(D) prompt disposition of such motion making the speedy
trial clock stop and start under the Speedy Trial Act 18 U.S.C. § 3161 (b) and Federal Rule
of Criminal Procedure Rule 45 computing and extending time.
A panel of the 5th Circuit Court ruled against Mr. Winans by ruling that under the
Bail Reform Act there was not a violation of countable days that passed between arrest and
indictment. Mr. Winans respectfully asserts that it was error for this Court to affirm his
convictions without considering when the 30-day clock stopped and started under the
Speedy Trial Act and request that this Court stay the mandate until disposition of the writ
of certiorari.
The Speedy Trial Act provides, in pertinent part, that an “indictment charging an
individual with the commission of an offense shall be filed within thirty days from the date on
which such individual was arrested or served with a summons in connection with such charges.”
18 U.S.C. § 3161(b). The sanction for failing to timely indict under the Speedy Trial Act is the
dismissal – with or without prejudice – of the “charge against that individual contained in such
6

complaint.” 18 U.S.C. § 3162(a)(1). The statute permits various delays to be excluded from the
30 day period including, inter alia, “delay resulting from any pretrial motion, from the filing of
the motion through the conclusion of the hearing on, or other prompt disposition of, such
motion” and “delay resulting from transportation of any defendant from another district, . . .
except that any time consumed in excess of ten days from the date an order of removal or an
order directing such transportation, and the defendant's arrival at the destination shall be
presumed to be unreasonable.” 18 U.S.C. § 3161(h) (emphasis added).
Even if the Government were granted the maximum amount of time to transport
Mr. Winans – ten days under 18 U.S.C. §3161(h)(1)(f)– the Government was only entitled to a
three-day delay for any continuance on any August 24, 2016 oral motion for detention pursuant
to the Bail Reform Act under United States of America v. Jason Tinklenberg 563 U.S. 647
(2011), at 131 S. Ct. at 2017; therefore, August 27 and 28th, the intermediate Saturday and
Sunday were non excludable days under the Speedy Trial Act 18 U.S.C. § 3161, Federal Rule of
Criminal Procedure 45(a)(1)(B) Computing and Extending Time, and Federal Rule of Criminal
Procedure 50 Prompt Disposition, and under United States of America v. Jason Tinklenberg 563
U.S. 647 (2011). Therefore, a maximum of 13 days were excludable from the 44-day period that
it took the Government to obtain an indictment. Consequently, excluding the 13-day delay, 31
days elapsed between the complaint and the indictment, requiring the dismissal of the charge in
the indictment. 18 U.S.C. § 3162(a)(2).
However, given that the Government bears the burden of proof in connection
with claims of exclusion of time under the Speedy Trial Act, 18 U.S.C. § 3161(h), the
Government is credited for only a 10 day delay for the time “resulting from transportation of any
defendant from another district,” August 27th, and August 28th, 2016 were non excludable under
7

18 U.S.C. §3161(h)(1); United States of America v. Jason Tinklenberg 563 U.S. 647 (2011), at
131 S. Ct. at 2017.
United States of America v. Jason Tinklenberg explains why, in Mr Winans case,
Saturdays and Sundays are not excluded under 18 U.S.C. § 3162(a)(2) –
Under the common-law rule, weekend days and holidays are included
when counting a statutory time period . . . unless the statute specifically excludes
them. See 74 Am.Jur.2d, Time § 22, p. 589 (2001) (in calculating time periods
expressed in statutes, "when the time stipulated must necessarily include one or
more Saturdays, Sundays, or holidays, those days will not be excluded, in the
absence of an express proviso for their exclusion"

Id at 2017. Under 18 U.S.C. §3161(h)(1)(D), any delay resulting from any pretrial motion, from
the filing of the motion through the conclusion of the hearing on, or other prompt disposition of,
such motion. Under 18 U.S.C. §3161(b) the indictment shall be filed within thirty days from the
date the defendant was arrested. Under 18 U.S.C. §3161 there are no exclusions for Saturdays and
Sundays, only specific exceptions under 18 U.S.C. §3161(h). Under 18 U.S.C. § 3142 (f)(2) when
the government requests a continuance, the delay cannot exceed three days. While 18 U.S.C. §
3142 (f)(2) excludes weekends, 18 U.S.C. §3161(h) does not exclude weekends and does not
incorporate the Bail Reform Act; therefore, the government is only entitled to the three days
allowed by 18 U.S.C. § 3142 (f)(2). The 30-day period under The Speedy Trial Act Stopped on
Thursday August 25th, and Friday August 26th, then the clock started again on Saturday August
27th, and Sunday August 28th, then the clock stopped again on Monday August 29th. On this basis,
31 non excludable days elapsed between the arrest and the indictment, requiring the reversal of
Mr. Winans conviction, and the dismissal of the indictment with prejudice. See the Speedy Trial
Act 18 U.S.C. § 3161, Federal Rule of Criminal Procedure 45(a)(1)(B) Computing and Extending

8

Time, and Federal Rule of Criminal Procedure 50 Prompt Disposition, and under United States of
America v. Jason Tinklenberg 563 U.S. 647 (2011).

CONCLUSION
The Government impermissibly delayed Mr. Winans’ indictment, in violation of the
Speedy Trial Act. These violations violated Mr. Winans’ statutory and constitutional right to a
speedy trial and are prejudicial. On this basis, Mr. Winans respectfully urges that this Court grant
this motion to stay the mandate until the disposition of a Writ of Certiorari to the United States
Supreme Court.

Respectfully submitted,
/s/Jerome Matthews, Jr_____________________
Jerome W. Matthews, Jr. (La. Bar No. 33964)
The Law Firm of Jerome W. Matthews, Jr., L.L.C.
310 Huey P Long Suite 104
Gretna, LA 70053
Telephone: (504) 247-6411
Email: jerome@jeromematthews.com
Attorney for Dwayne Winans

9

